                                                            Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement—                          Date:    August 31, 2004
           Notification of Audit of Highway-Rail Grade
           Crossing Inspections, Accident Reporting, and
           Investigations
           Project No. 04M3016M000

                                                                   Reply to   JA-40
  From:                                                            Attn of:
           Debra S. Ritt
           Assistant Inspector General
            for Surface and Maritime Programs

    To:    Acting Federal Railroad Administrator

           At the request of Representative James L. Oberstar, Ranking Democratic
           Member of the House Committee on Transportation and Infrastructure;
           Representative Corrine Brown, Ranking Democratic Member of the House
           Subcommittee on Railroads; and Senator Ernest F. Hollings, Ranking
           Democratic Member of the Senate Committee on Commerce, Science and
           Transportation; we are initiating an audit of highway-rail grade crossing
           inspections, accident reporting, and investigations. The focus of this audit will
           differ significantly from the grade crossing safety report we issued on
           June 16, 2004. Our recent report focused on the Department of Transportation’s
           progress in implementing its Highway-Rail Grade Crossing Safety Action Plan
           (Report No. MH-2004-065), highlighting accident trends for targeting future
           grade crossing improvements. We also reported on how states have used Federal
           safety funds to close or equip crossings with automatic warning devices, such as
           flashing lights and gates.

           Our new audit planned for August 2004 will address safety issues identified by
           the New York Times July 11 and July 12, 2004 articles and focus on the laws and
           regulations governing grade crossing safety inspections, accident reporting
           requirements, and accident investigation procedures. Our specific objectives
           will be to assess the adequacy of FRA’s oversight of highway-rail grade crossing
           inspections, accident reporting, and accident investigations. Since the audit
                                                                                   2

  work will address many issues, as shown in the attached congressional request
  letter, we plan to issue a series of reports to expedite communication of our audit
  results.

  We will contact your audit liaison to schedule a formal entrance conference to
  discuss the planned audit. We plan to conduct audit work at the headquarters
  offices of FRA and the Federal Highway Administration (FHWA), which
  provides funding for grade crossing safety programs, in addition to selected FRA
  regional offices, FHWA division offices, and state highway agencies. The
  Program Director for the audit is Michael E. Goldstein and the Project Manager
  is Brenda R. James. For any additional information, please contact me at
  (202) 493-0331 or Mr. Goldstein at (212) 264-8701.

                                              #

  Attachment

  cc: FHWA Administrator, HOA-1
      Martin Gertel, M-1
      Debra Steward, RAD-20
      Cynthia Thornton, HAIM-13




Control No.: 2004-078
